HHS/OIG-Audit--"Reconciliation of Expenditures, Title IV-A Emergency Assistance Program, Nebraska Health and Human Services System(A-07-98-01035)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Reconciliation of Expenditures, Title IV-A Emergency Assistance Program,
Nebraska Health and Human Services System" (A-07-98-01035)
April 13, 1999
Complete
Text of Report is available in PDF format (565 KB). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report provides the results of our audit entitled Reconciliation
of Expenditures reported for the Title IV-A Emergency Assistance (EA)
program by the Nebraska Health and Human Services System (Department), Lincoln,
Nebraska. We determined that the costs claimed included unapplied EA credits,
duplicate charges and unsupported costs totaling $1,271,105 (Federal share
$635,552). We are recommending that the Department reduce Federal accounts
for improper costs claimed, take steps to preclude a future recurrence and
adjust the base costs used to calculate awards under the Temporary Assistance
to Needy Families (TANF) program. The Department concurred with our findings
and recommendations.